Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




  STATE AND LOCAL PANDEMIC
  INFLUENZA PREPAREDNESS:
       MEDICAL SURGE




                    Daniel R. Levinson
                     Inspector General

                     September 2009
                     OEI-02-08-00210
                 Office of Inspector General
                                  http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services
(HHS) programs, as well as the health and welfare of beneficiaries served by those
programs. This statutory mission is carried out through a nationwide network of audits,
investigations, and inspections conducted by the following operating components:

Office of Audit Services
The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits
examine the performance of HHS programs and/or its grantees and contractors in carrying
out their respective responsibilities and are intended to provide independent assessments of
HHS programs and operations. These assessments help reduce waste, abuse, and
mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide
HHS, Congress, and the public with timely, useful, and reliable information on significant
issues. These evaluations focus on preventing fraud, waste, or abuse and promoting
economy, efficiency, and effectiveness of departmental programs. To promote impact, OEI
reports also present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations
of fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources
by actively coordinating with the Department of Justice and other Federal, State, and local
law enforcement authorities. The investigative efforts of OI often lead to criminal
convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to
OIG, rendering advice and opinions on HHS programs and operations and providing all
legal support for OIG’s internal operations. OCIG represents OIG in all civil and
administrative fraud and abuse cases involving HHS programs, including False Claims Act,
program exclusion, and civil monetary penalty cases. In connection with these cases, OCIG
also negotiates and monitors corporate integrity agreements. OCIG renders advisory
opinions, issues compliance program guidance, publishes fraud alerts, and provides other
guidance to the health care industry concerning the anti-kickback statute and other OIG
enforcement authorities.
Δ   E X E C U T I V E                                    S U M M A R Y


                  OBJECTIVES
                  To determine the extent to which selected States and localities have:

                  1. prepared for a medical surge in response to an influenza pandemic
                  and

                  2. conducted and documented exercises that test their medical surge
                  preparedness for an influenza pandemic.


                  BACKGROUND
                  An influenza pandemic is a global outbreak of a highly infectious
                  influenza virus that can cause serious illness in humans. The
                  Department of Health and Human Services (HHS) estimates that even
                  a mild influenza pandemic could cause between 2 and 7.4 million deaths
                  worldwide. In February 2008, the Assistant Secretary for Preparedness
                  and Response (ASPR) within HHS asked the Office of Inspector General
                  to evaluate State and local preparedness for influenza pandemic,
                  particularly with regard to medical surge and vaccine and antiviral
                  drug distribution and dispensing.

                  Since 2002, HHS, primarily through ASPR and the Centers for Disease
                  Control and Prevention (CDC), has provided more than $8 billion for
                  programs to enhance their emergency preparedness for large-scale
                  public health emergencies. In addition, HHS provided $600 million in
                  supplemental funding specifically for pandemic influenza preparedness.

                  If a severe pandemic occurs, it will affect much of the country at the
                  same time, so medical resources—such as hospital beds, medical
                  equipment, and personnel—will likely be scarce. The ability to rapidly
                  respond to an increased demand for medical resources is often referred
                  to as a medical surge. This study focuses on the following five key
                  components of medical surge that are based on guidance from ASPR and
                  CDC: (1) coordination among stakeholders; (2) recruitment and
                  management of medical volunteers; (3) acquisition and management of
                  medical equipment;
                  (4) development of alternate care sites; and (5) identification of
                  guidelines for altering triage, admission, and patient care.

                  This study is based on a purposive sample of 5 States and 10 localities
                  and presents a snapshot of these States’ and localities’ preparedness for
                  an influenza pandemic as of late summer 2008. The study is based on a
                  review of documentation from ASPR, CDC, and the selected States and

OEI-02-08-00210   S TAT E   AND   L O C A L PA N D E M I C I N F L U E N Z A P R E PA R E D N E S S : M E D I C A L S U R G E   i
E X E C U T I V E                       S U           M M A R Y


                   localities, as well as structured in-person interviews with key officials in
                   each of the selected States and localities.


                   FINDINGS
                   All of the selected localities had established partnerships to
                   prepare for a medical surge; however, the degree to which
                   coordination occurred varied. As of late summer 2008, all
                   10 localities had developed committees to help plan for a pandemic, as
                   well as health care coalitions to coordinate the efforts of health care
                   facilities. In addition, all localities had started to include hospitals in
                   their emergency response planning. Although these partnerships
                   helped to prepare for a medical surge, the degree to which coordination
                   occurred varied among the 10 localities.
                   Fewer than half of the selected localities had started to recruit
                   medical volunteers, and none of the five States had implemented
                   an electronic system to manage them. Four localities had started to
                   recruit, register, and train medical volunteers. All four, however, had
                   concerns about using volunteers. In addition, none of the five States
                   had fully implemented an electronic system for managing medical
                   volunteers. States were required by ASPR to have electronic systems to
                   register medical volunteers and verify credentials by August 2009.
                   All of the selected localities had acquired limited medical
                   equipment for a pandemic, but only three of the five States had
                   electronic systems to track beds and equipment. All 10 localities
                   had acquired limited caches of medical equipment; however, many
                   experienced difficulties with managing this equipment. In addition,
                   only three of the five States had implemented electronic systems to
                   track available hospital beds and medical equipment during an
                   emergency.
                   Most of the selected localities were in the early stages of planning
                   for alternate care sites. Alternate care sites are preselected facilities,
                   such as schools or convention centers, that have been identified for
                   potential use during emergencies to help alleviate overcrowding in
                   hospitals. Nine localities had either identified or were in the process of
                   identifying alternate care sites to be used in a pandemic; however, few
                   had signed formal agreements. None of the localities that were
                   planning to use alternate care sites had plans that included the scope of
                   care and how these sites would be managed, staffed, and supplied.



 OEI-02-08-00210   S TAT E   AND   L O C A L PA N D E M I C I N F L U E N Z A P R E PA R E D N E S S : M E D I C A L S U R G E   ii
E X E C U T I V E                       S U           M M A R Y


                   Most of the selected localities had not identified guidelines for
                   altering triage, admission, and patient care; many cited liability
                   concerns. During a pandemic, health care professionals may need to
                   alter how they provide medical care by allocating scarce resources in a
                   manner that saves the greatest number of lives. Nine localities had not
                   identified guidelines for altering triage, admission, and patient care
                   during a pandemic. Seven of these localities noted that providers in
                   their localities were concerned that they would be legally at risk if they
                   were to alter their standards for triage, admission, or patient care, and
                   all nine reported that they wanted additional State or Federal guidance.
                   All of the selected localities conducted medical surge exercises;
                   however, none consistently documented the lessons learned.
                   Localities conducted between one and seven medical surge exercises
                   over a 2-year period. Most of these exercises were discussion-based,
                   rather than operations-based. Although localities are encouraged to
                   document lessons learned during exercises through the creation of
                   after-action reports and improvement plans, none consistently
                   completed these documents for their exercises. In addition, the existing
                   documentation that we reviewed showed that localities needed to make
                   improvements within the five medical surge components.


                   RECOMMENDATIONS
                   Based on these findings, we recommend that ASPR, in collaboration
                   with CDC:
                   Work with States and localities to improve their efforts within each
                   of the five components of medical surge that we reviewed.
                    •    ASPR should continue to emphasize the importance of coordination and
                         involving a wide array of stakeholders in medical surge and pandemic
                         planning.

                    •    ASPR should continue to emphasize the importance of recruiting,
                         registering, and training medical volunteers for use in a pandemic.

                    •    ASPR should continue to emphasize the importance of managing
                         medical equipment currently being stockpiled for a public health
                         emergency, such as a pandemic.

                    •    ASPR should continue to emphasize the importance of planning for
                         alternate care sites for use during a pandemic.




 OEI-02-08-00210   S TAT E   AND   L O C A L PA N D E M I C I N F L U E N Z A P R E PA R E D N E S S : M E D I C A L S U R G E   iii
E X E C U T I V E                       S U           M M A R Y


                    •    ASPR should emphasize the importance of identifying and adopting
                         guidelines for altering triage, admission, and patient care during a
                         pandemic.

                   Ensure that States and localities consistently document the lessons
                   learned from preparedness exercises that address medical surge.
                   Given the importance of exercises in strengthening preparedness, ASPR,
                   in collaboration with CDC, should ensure that States and localities
                   consistently document the lessons learned from all medical surge exercises
                   that require documentation.
                   Address the issue of legal protections for medical professionals and
                   volunteers who respond to public health emergencies, such as an
                   influenza pandemic. ASPR should consider working with States to
                   develop appropriate legal protections for medical professionals and
                   volunteers who respond to public health emergencies and who may need to
                   alter standards of care. ASPR should also consider the feasibility of
                   Federal legislation in this area.
                   Facilitate the sharing of information and emerging practices
                   among States and localities. ASPR, in collaboration with CDC,
                   should collect information on emerging practices from States and
                   localities, as well as experts in the field, to further improve medical
                   surge preparedness. ASPR should employ a variety of strategies to
                   facilitate the sharing of this information and emerging practices
                   among States and localities.
                   Provide training and technical assistance to States and localities on
                   key issues. ASPR, in collaboration with CDC, should address specific
                   State and local challenges, such as identifying alternate care sites,
                   managing medical equipment, and identifying guidelines for alternate
                   standards of care.


                   AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
                   RESPONSE
                   ASPR concurred with all five of our recommendations. CDC did not
                   formally comment, but did provide technical comments. We made
                   changes to the final report based on CDC’s technical comments, as
                   appropriate.




 OEI-02-08-00210   S TAT E   AND   L O C A L PA N D E M I C I N F L U E N Z A P R E PA R E D N E S S : M E D I C A L S U R G E   iv
Δ   T A B L E          O F            C O N T E N T S



         EXECUTIVE SUMMARY .....................................i



         INTRODUCTION ........................................... 1



         F I N D I N G S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12
                    All of the selected localities had established partnerships to
                    prepare for a medical surge; however, the degree to which
                    coordination occurred varied . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12

                    Fewer than half of the selected localities had started to recruit
                    medical volunteers, and none of the five States had implemented
                    an electronic system to manage them . . . . . . . . . . . . . . . . . . . . . . 13

                    All of the selected localities had acquired limited medical
                    equipment for a pandemic, but only three of the five States had
                    electronic systems to track beds and equipment . . . . . . . . . . . . . . 15

                    Most of the selected localities were in the early stages of
                    planning for alternate care sites . . . . . . . . . . . . . . . . . . . . . . . . . . 17

                    Most of the selected localities had not identified guidelines for
                    altering triage, admission, and patient care; many cited liability
                    concerns. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19

                    All of the selected localities conducted medical surge exercises;
                    however, none consistently documented the lessons learned . . . . 20



         R E C O M M E N D A T I O N S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 25
                    Agency Comments and Office of Inspector General Response . . . 27



         A P P E N D I X . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 28
                    A: Selected States and Localities. . . . . . . . . . . . . . . . . . . . . . . . . . 28

                    B: Agency Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 29



         A C K N O W L E D G M E N T S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 30
Δ   IT NA TB RL OE D OU FC T CI OO NN T E N T S


                  OBJECTIVE
                  To determine the extent to which selected States and localities have:

                  1. prepared for a medical surge in response to an influenza pandemic
                  and

                  2. conducted and documented exercises that test their medical surge
                  preparedness for an influenza pandemic.


                  BACKGROUND
                  An influenza pandemic is a global outbreak of a highly infectious
                  influenza virus that can cause serious illness in humans. 1 HHS
                  estimates that even a mild influenza pandemic could cause between
                  2 and 7.4 million deaths worldwide. 2 In June 2009, after human cases
                  of a novel H1N1 influenza were identified in the United States and
                  internationally, the World Health Organization raised its influenza
                  pandemic alert level to Phase 6, indicating that a pandemic is
                  underway. 3 Although scientists cannot predict this pandemic’s severity,
                  it has highlighted the importance of ongoing emergency preparedness
                  efforts.

                  In February 2008, the Assistant Secretary for Preparedness and
                  Response (ASPR) within HHS asked the Office of Inspector General
                  (OIG) to evaluate State and local preparedness for influenza pandemic,
                  particularly with regard to medical surge and vaccine and antiviral
                  drug distribution and dispensing.
                  This evaluation focuses on the extent to which selected States and
                  localities have prepared for a medical surge during a pandemic.
                  Medical surge is a rapid expansion of the health care system in response
                  to an event that requires resources—such as hospital beds, medical
                  equipment, and personnel—that exceed what the normal medical


                     1 Department of Health and Human Services (HHS), “Flu Terms Defined.” Available

                  online at http://www.pandemicflu.gov. Accessed on February 17, 2009.
                     2 HHS, “Why are pandemics such dreaded events?” Available online at
                  http://www.pandemicflu.gov/faq/pandemicinfluenza/1108.html. Accessed on February 17,
                  2009.
                    3 World Health Organization, “World now at the start of 2009 influenza pandemic.”
                  Available online at http://www.who.int/mediacentre/news/statements/2009/h1n1_pandemic
                  _phase6_20090611/en/index.html. Accessed on August 10, 2009.




OEI-02-08-00210   S TAT E   AND   L O C A L PA N D E M I C I N F L U E N Z A P R E PA R E D N E S S : M E D I C A L S U R G E   1
I N T R O D        U C T            I O N


                    infrastructure can provide. 4 A second OIG evaluation focuses on the
                    extent to which selected localities have prepared for vaccine and
                    antiviral drug distribution and dispensing during a pandemic. 5 In
                    addition, OIG is auditing three States to determine whether certain
                    expenditures used to prepare for an influenza pandemic complied with
                    Federal requirements. 6
                    HHS Support of State and Local Preparedness Efforts
                    Since 2002, HHS has provided more than $8 billion for programs to
                    enhance their emergency preparedness for large-scale public health
                    emergencies. 7 HHS has distributed this funding primarily through
                    cooperative agreements under two programs—ASPR’s HPP 8 and the
                    Centers for Disease Control and Prevention’s (CDC) PHEP. 9 In
                    addition to providing general emergency preparedness funds, HHS has
                    provided $600 million in supplemental funding specifically for
                    improving preparedness for an influenza pandemic.




                      4 The CNA Corporation, “Medical Surge Capacity and Capability: A Management
                    System for Integrating Medical and Health Resources During Large-Scale Emergencies,”
                    August 2004, p. I 5.
                      5 OIG, “Local Pandemic Influenza Preparedness: Vaccine and Antiviral Drug
                    Distribution and Dispensing,” OEI-04-08-00260.
                      6 OIG, “Review of Vermont’s Pandemic Influenza Expenditures for the Period August 31,
                    2005, Through June 30, 2008,” A-01-08-01500, June 25, 2009; “Review of Washington
                    State's Pandemic Influenza Expenditures for the Period August 31, 2005, Through June 30,
                    2008,” A-09-08-01006, August 21, 2009. OIG is also auditing pandemic influenza
                    expenditures in Georgia.
                      7 HHS, “HHS Announces $896.7 Million in Funding to States for Public Health
                    Preparedness and Emergency Response.” Available online at
                    http://www.hhs.gov/news/press/2007pres/07/pr20070717c.html. HHS also provided an
                    additional $1 billion in Public Health Emergency Preparedness Program (PHEP) and
                    Hospital Preparedness Program (HPP) funds in 2008. See HHS, “HHS Provides More Than
                    $1 Billion to Improve All Hazards Public Health.” Available online at
                    http://www.hhs.gov/news/press/2008pres/06/20080603a.html. Accessed on March 6, 2009.
                      8 The administration of HPP was transferred to ASPR from the Health Resources and
                    Services Administration (HRSA) in December 2006. (See 42 U.S.C. § 300hh-10, as added by
                    P.L. No. 109-417, Title I, § 102(a)(3)). Activities under HPP are currently authorized by
                    42 U.S.C. §§ 247d-3a and 247d-3b.
                       9 CDC has cited various authorities for PHEP and PHEP supplemental funding. CDC is
                    currently relying on section 319C-1 of the Public Health Service Act (42 U.S.C. § 247d-3a)
                    for all of these grant awards.



 OEI-02-08-00210    S TAT E   AND   L O C A L PA N D E M I C I N F L U E N Z A P R E PA R E D N E S S : M E D I C A L S U R G E   2
I N T R O D        U C T            I O N


                    The Secretary of HHS has been designated the lead official for all
                    Federal public health and medical response in the event of a public
                    health emergency. 10 ASPR is the primary agency within HHS
                    responsible for improving medical surge preparedness. ASPR provides
                    funding and guidance through HPP to improve the response of the
                    health care system during public heath emergencies. 11 CDC generally
                    plays a supporting role in medical surge preparedness by focusing on
                    improving the response of the public health system during an
                    emergency, such as an influenza pandemic.

                    The focus of both HPP and PHEP funding is to build the capability of
                    the health care and public health systems to minimize the number of
                    deaths, long term disabilities, injuries, and hospitalizations from events,
                    such as pandemics. 12 In general, HPP and PHEP guidance require that
                    States prioritize preparedness activities and outline how they will spend
                    the funds. 13 The guidance generally allows States to specify in their
                    grant applications the activities that they intend to complete to improve
                    their preparedness. 14 As these programs have evolved, the guidance
                    has often emphasized varying program priorities. In addition, although
                    Federal funding and guidance are provided to States, many of the
                    activities needed to prepare for an influenza pandemic are carried out
                    by localities.




                       10 This authority was established with the passage of the 2006 Pandemic and
                    All-Hazards Preparedness Act, P.L. No. 109-417, § 201, 42 U.S.C. § 247d.
                       11 Funding for both HPP and PHEP was provided to the 50 States; Washington, DC;
                    five territories (Puerto Rico, the Virgin Islands, American Samoa, Commonwealth of the
                    northern Mariana Islands, and Guam); the Pacific Freely Associated States (Republic of the
                    Marshall Islands, Republic of Palau, and the Federated States of Micronesia); and the
                    localities of Chicago, Los Angeles County, and New York City. For the purposes of this
                    report, we refer to these entities as States.
                       12 HRSA, National Bioterrorism Hospital Preparedness Program (hereinafter referred to
                    as HPP Fiscal Year (FY) 06 guidance), FY 2006, p.5; CDC, Pandemic Influenza Guidance
                    Supplement to the 2006 Public Health Emergency Preparedness Cooperative Agreement
                    Phase II (hereinafter referred to as PHEP Phase II guidance), p. 5.
                      13 HPP FY 06 guidance, pp. 29-30; ASPR, Announcement of Availability of Funds for the
                    Hospital Preparedness Program, Pandemic Influenza Supplement for Medical Surge
                    Capacity and Capability, p. 2; PHEP Phase II guidance, p. 9.
                       14 Ibid.




 OEI-02-08-00210    S TAT E   AND   L O C A L PA N D E M I C I N F L U E N Z A P R E PA R E D N E S S : M E D I C A L S U R G E   3
I N T R O D        U C T            I O N


                    Medical Surge in Response to a Pandemic
                     If a severe pandemic occurs, it will affect much of the country at the
                    same time, so medical resources—such as hospital beds, medical
                    equipment, and personnel—will likely be scarce. 15 The ability to
                    rapidly respond to this increased demand for medical resources is often
                    referred to as medical surge. This study focuses on the following five
                    key components of medical surge that were identified in HPP and PHEP
                    guidance: (1) coordination among stakeholders; (2) recruitment and
                    management of medical volunteers; (3) acquisition and management of
                    medical equipment; (4) identification of alternate care sites; and (5)
                    identification of guidelines for altering triage, admission, and patient
                    care.
                    Coordination among stakeholders: HPP and PHEP guidance
                    consistently emphasize that medical surge preparedness requires
                    coordination among a variety of public and private stakeholders,
                    including hospitals and other health care facilities, public health
                    departments, and emergency management departments. HPP and
                    PHEP guidance also encourage States and localities to establish
                    pandemic influenza coordinating committees and health care coalitions
                    to help plan for a pandemic. Additionally, these documents encourage
                    localities to integrate the efforts of private health care facilities with
                    those of the local departments of public safety, emergency management,
                    and public health. 16
                    Recruitment and management of medical volunteers: In the event of a
                    pandemic, States and localities may be forced to rely on large numbers of
                    medical volunteers. HPP guidance encourages States and localities to
                    recruit, register, and train medical volunteers prior to a pandemic as part
                    of the Emergency System for Advance Registration of Volunteer Health
                    Professionals (ESAR-VHP) program. 17 Additionally, the guidance

                       15 Agency for Healthcare Research and Quality (AHRQ), AHRQ Publication No. 07-0001,
                    “Mass Medical Care with Scarce Resources: A Community Planning Guide (2007).”
                    Available online at http://www.ahrq.gov/research/mce/mceguide.pdf. Accessed on
                    April 23, 2008.
                      16 ASPR, Announcement of Availability of Funds for the Hospital Preparedness Program,
                    Pandemic Influenza Supplemental for Medical Surge Capacity and Capability for Budget
                    Period October 31, 2007–October 31, 2008, p. 4 (hereinafter referred to as HPP FY 07
                    guidance); PHEP Phase II guidance, p. 3.
                       17 Note that HPP guidance references additional guidance in the following document:
                    HRSA, “ESAR-VHP Program Interim Technical and Policy Guidelines, Standards, and
                    Definitions,” Version 2, June 2005. ASPR plans to release Version 3 of this guidance in
                    2009.



 OEI-02-08-00210    S TAT E   AND   L O C A L PA N D E M I C I N F L U E N Z A P R E PA R E D N E S S : M E D I C A L S U R G E   4
I N T R O D        U C T            I O N


                    required States to develop electronic systems to register medical
                    volunteers and verify credentials by August 2009. 18
                    Acquisition and management of medical equipment: During a severe
                    pandemic, medical equipment will likely be scarce. Both HPP and
                    PHEP supplemental funding can be used to purchase medical
                    equipment at the State and local levels. Localities are generally
                    responsible for storing, maintaining, and transporting this medical
                    equipment. In addition, HPP requires States to maintain a system that
                    enables them to report to HHS the number of available hospital beds. 19
                    It also encourages States to make these systems electronic; however,
                    States have the option of manually entering the data they receive from
                    hospitals into an HHS Web site. In addition, States are encouraged to
                    establish interoperable inventory-tracking systems that assist with the
                    management of medical equipment during an emergency. 20
                    Development of alternate care sites: Alternate care sites are preselected
                    facilities—such as schools or convention centers—that have been identified
                    for potential use during emergencies to help alleviate overcrowding in
                    hospitals. They can also be mobile alternate care sites that are
                    preequipped with tents and beds and can be set up quickly in various
                    locations. HPP and PHEP guidance encourage hospitals, in conjunction
                    with other community partners, to identify appropriate locations for
                    alternate care sites. 21 Before being able to use these sites, localities need
                    to engage in a significant amount of planning. Such planning generally
                    consists of determining the scope of care that will be provided at the site in
                    an emergency and establishing how the site will be managed, staffed, and
                    supplied.




                       18 HPP FY 07 guidance pp. 2-3; 1-year extension provided for in ASPR, Announcement of
                    Availability of Funds for HPP, FY 08, p. 12.
                       19 HPP FY 07 guidance. States were required to have such reporting capabilities—
                    referred to as the standards for Hospital Available Beds for Emergencies and Disasters—by
                    August 8, 2008.
                       20 Note that HPP guidance requires States to be compliant with the National Incident
                    Management System, which encourages States to have interoperable systems in place to
                    track equipment. In the future, these systems will be required for States. See Federal
                    Emergency Management Agency, IS-700.a National Incident Management System, An
                    Introduction, I-700.a, Unit 5. Available online at:
                    http://training.fema.gov/EMIWeb/IS/is700alst.asp. Accessed on May 21, 2009.
                      21 PHEP Phase II guidance, p. 32. The guidance also encourages States to use a tool
                    developed by AHRQ to help identify facilities that can be used as alternate care sites.



 OEI-02-08-00210    S TAT E   AND   L O C A L PA N D E M I C I N F L U E N Z A P R E PA R E D N E S S : M E D I C A L S U R G E   5
I N T R O D        U C T            I O N


                    Identification of guidelines for altering triage, admission, and patient care:
                    A severe pandemic will likely require changes to how medical care is
                    provided. Physicians and other health care professionals may need to
                    alter triage, admission, and patient care. Such alterations are referred to
                    as altered standards of care, which generally require allocating scarce
                    equipment, supplies, and personnel in a manner that saves the greatest
                    number of lives, as opposed to the traditional focus of treating the sickest
                    or most injured patients first. 22 In 2004, HHS developed
                    recommendations to States and localities for how to alter patient care,
                    emphasizing that such efforts should involve unified local and regional
                    planning. 23 Specifically, localities are encouraged to identify and adopt
                    guidelines for altering triage, admission, and patient care to ensure that
                    all hospitals and other health care providers are making uniform decisions
                    during a pandemic. In addition, the American Health Lawyers Association
                    (AHLA), in cooperation with CDC and OIG, developed a checklist that
                    encourages health care providers to develop altered standards of care that
                    may become necessary in a pandemic. 24
                    Exercises To Address Medical Surge
                    States and localities conduct exercises to test and improve their
                    medical surge preparedness. HPP and PHEP guidance require States
                    to conduct medical surge exercises. 25 Localities may participate in
                    State exercises or conduct their own exercises.

                    Exercises generally fall into two categories. Discussion-based
                    exercises enable participants to become familiar with current plans,
                    policies, and procedures. In contrast, operations-based exercises
                    enable participants to execute plans, policies, and procedures in order
                    to clarify roles and responsibilities and identify resource gaps. 26
                    PHEP guidance suggests using discussion-based exercises to identify


                       22 AHRQ, “Altered Standards of Care in Mass Casualty Events,” April 2005. Available
                    online at http://www.ahrq.gov/research/altstand/altstand1.htm. Accessed on March 6, 2009.
                       23 Ibid.
                       24 This document also provides a comprehensive list of potential legal issues that health
                    care providers may face during an influenza pandemic. See AHLA, “Community Pan-Flu
                    Preparedness: A Checklist of Key Legal Issues for Healthcare Providers,” 2008. Available
                    online at http://www.healthlawyers.org/panfluchecklist. Accessed on May 13, 2009.
                       25 HPP guidance required that States conduct at least one medical surge exercise by
                    August 2008. PHEP required States to conduct at least one medical surge exercise by
                    August 2007. HPP FY 07 guidance, pp. 15–17; PHEP Phase II guidance, pp. 10–11.
                      26 Homeland Security Exercise and Evaluation Program (HSEEP). Available online at
                    https://hseep.dhs.gov/pages/1001_HSEEP7.aspx. Accessed on March 6, 2009.



 OEI-02-08-00210    S TAT E   AND   L O C A L PA N D E M I C I N F L U E N Z A P R E PA R E D N E S S : M E D I C A L S U R G E   6
I N T R O D        U C T            I O N


                    and address gaps in preparedness plans before conducting more
                    resource-intensive operations-based exercises. 27
                    HPP and PHEP guidance also encourage States to conduct exercises
                    in accordance with the HSEEP program. 28 HSEEP requires
                    participants to create an after-action report and an improvement plan
                    for each exercise. After-action reports include the exercise objectives,
                    participant observations, and general recommendations.
                    Improvement plans incorporate the lessons learned during the
                    exercise and include specific corrective actions, the responsible
                    parties, and dates for their completion.
                    Related Work
                    In 2009, the Center for Biosecurity of the University of Pittsburgh
                    Medical Center, under contract with ASPR, released a report on the
                    impact of HPP on hospital preparedness from 2002 to 2007. 29 It found
                    that disaster preparedness of individual hospitals had improved
                    significantly throughout the country since the start of HPP.
                    Specifically, it found that the emergence of health care coalitions
                    created a foundation for health care preparedness, but that health care
                    planning for catastrophic emergencies was still in its early stages,
                    particularly with regard to altering standards of care.

                    In 2008, the Government Accountability Office (GAO) released a report
                    that found that selected States and localities had developed pandemic
                    influenza plans. 30 These States and localities had also conducted or
                    participated in at least one exercise to test their plans. Further, GAO
                    found that according to HHS’s review of these plans, States had major
                    gaps in many areas, including medical surge.

                    In 2008, GAO released another report that found that the Federal
                    Government had provided funding, written guidance, and other
                    assistance, such as holding conferences, to help States prepare for



                       27 PHEP Phase II guidance, p. 6.
                       28 HPP FY 07 guidance, pp. 16–17; PHEP Phase II guidance, p. 4. Beginning in August
                    2008, HSEEP compliance was required for all exercises associated with HPP or PHEP
                    funding.
                       29 Center for Biosecurity of the University of Pittsburgh Medical Center, “Hospitals
                    Rising to the Challenge: The First Five Years of the U.S. Hospital Preparedness Program
                    and Priorities Going Forward,” March 2009.
                      30 GAO, “Influenza Pandemic: Federal Agencies Should Continue to Assist States to
                    Address Gaps in Pandemic Planning,” GAO-08-539, June 2008.



 OEI-02-08-00210    S TAT E   AND   L O C A L PA N D E M I C I N F L U E N Z A P R E PA R E D N E S S : M E D I C A L S U R G E   7
I N T R O D        U C T            I O N


                    medical surge in a mass casualty event. 31 GAO reported that the
                    20 States it reviewed were planning for medical surge at the State
                    level and had made efforts in increasing hospital capacity, identifying
                    alternate care sites, and registering medical volunteers, but that
                    fewer were planning for altered standards of care. GAO further noted
                    that these 20 States continued to face challenges in preparing for
                    medical surge in a mass casualty event.


                    METHODOLOGY
                    This review determines how selected States and localities have prepared
                    for medical surge in response to an influenza pandemic and the extent to
                    which they have conducted and documented exercises that test their
                    preparedness. It presents a snapshot of selected States’ and localities’
                    preparedness for an influenza pandemic as of late summer 2008. This
                    review is based on data from two sources: (1) a review of documentation
                    from ASPR, CDC, and the selected States and localities; and (2) structured
                    in-person interviews with key officials in each of the selected States and
                    localities.
                    Selection of Sampled States and Localities
                    We selected a purposive sample of five States based on the following
                    factors: health department structure, population density, geographic
                    distribution, and input from ASPR and CDC. We selected one State
                    included in related OIG studies and eliminated other States included in
                    recent GAO work related to this evaluation. The States we selected
                    were Maine, Missouri, South Dakota, Virginia, and Washington. In
                    each State, we selected the largest Metropolitan Statistical Area (MSA)
                    and then selected the most populated city within that MSA. We also
                    selected one low- to medium-sized city in each State. We did not select
                    localities in counties that were adjacent to each other to ensure that
                    localities were in different regional planning areas. See Appendix A for
                    a list of the selected localities.
                    Data Collection
                    Selection of medical surge components: We selected the following five
                    key components of medical surge based on a review of HPP and PHEP
                    guidance and input from officials at CDC and ASPR: (1) coordination


                       31 GAO, “Emergency Preparedness: States Are Planning for Medical Surge, but Could

                    Benefit from Shared Guidance for Allocating Scarce Medical Resources,” GAO-08-668,
                    June 2008.



 OEI-02-08-00210    S TAT E   AND   L O C A L PA N D E M I C I N F L U E N Z A P R E PA R E D N E S S : M E D I C A L S U R G E   8
I N T R O D        U C T            I O N


                    among stakeholders; (2) recruitment and management of medical
                    volunteers; (3) acquisition and management of medical equipment;
                    (4) identification of alternate care sites; and (5) identification of
                    guidelines for altering triage, admission, and patient care.
                    State and local documentation: To determine how selected States and
                    localities have prepared for a medical surge, we first requested
                    documentation from ASPR and CDC. Specifically, we requested HPP,
                    HPP supplemental, and PHEP supplemental applications and progress
                    reports that covered the time between 2006 and 2008 for each of the five
                    selected States. We also requested any assessments that ASPR and CDC
                    conducted of these documents.
                    In addition, from each selected State and locality, we requested all
                    available documentation related to the five components of medical surge
                    that we reviewed. These documents included States’ and localities’
                    pandemic influenza plans and various other documents, such as committee
                    meeting notes, memoranda of understanding, and descriptions of
                    equipment. We also requested all available documentation about the
                    exercises that these States and localities conducted from August 2006 to
                    August 2008 that were related to these five components of medical surge,
                    including any after-action reports and improvement plans. 32
                    Structured interviews with State and local officials: We conducted
                    structured in-person interviews with officials responsible for coordinating
                    medical surge in each of the 5 States and 10 localities. At the State level,
                    these officials typically included State HPP and PHEP coordinators and
                    State emergency preparedness exercise coordinators. At the local level, we
                    determined how each State distributed its HPP and PHEP funds to its
                    localities and identified the key local officials responsible for coordinating
                    medical surge activities. These officials typically included representatives
                    involved in pandemic planning activities as well as representatives from
                    local public health departments and hospitals. In a few localities,
                    representatives from emergency management services were also present.
                    We conducted the interviews between July and September 2008.




                       32 For the purpose of our review, we included exercises that localities either conducted or
                    participated in (including exercises that the State conducted in which the selected localities
                    participated). We did not include routine drills because they are limited to an exercise of a
                    single entity and function. We also did not include workshops as they are generally focused
                    on achieving a particular objective, such as developing a new draft plan or policy.



 OEI-02-08-00210    S TAT E   AND   L O C A L PA N D E M I C I N F L U E N Z A P R E PA R E D N E S S : M E D I C A L S U R G E   9
I N T R O D        U C T            I O N


                    During our interviews, we asked State and local officials about their
                    preparedness activities for medical surge and about the exercises they
                    had conducted within the five components that we reviewed. Our
                    discussions with State officials focused on the State’s role in each of the
                    five components as well as in conducting exercises. Our discussions
                    with local officials focused on the localities’ progress and challenges
                    within each of the five components, as well as the localities’ exercise
                    programs. Throughout the report, we use the term “States” to refer to
                    the State officials that we interviewed and “localities” to refer to the
                    local and regional officials that we interviewed.
                    Data Analysis
                    To determine how the selected States and localities have prepared for a
                    medical surge, we relied on both the State and local documentation we
                    collected, as well as the responses from the structured interviews with
                    State and local officials. We compared the documentation to the
                    information gathered during our structured interviews and looked for
                    consistency among the sources of data. We also asked for additional
                    documentation, when appropriate, to validate certain responses about
                    States’ and localities’ preparedness activities. For example, we
                    reviewed memoranda of understanding or other documentation to verify
                    that localities had formal agreements in place that would allow them to
                    set up alternate care sites. We also reviewed meeting notes and agenda
                    to verify that localities coordinated with certain entities. In addition,
                    we compared the responses of the State officials to those of the local
                    officials. We also looked for corroboration among the various officials
                    present at each interview. To determine the extent to which States and
                    localities have conducted and documented exercises that test their
                    medical surge preparedness, we relied primarily on the documentation
                    we collected from the States and localities, including any after-action
                    reports and improvement plans.
                    Limitations
                    This study is based on a purposive sample of five States and two
                    localities within each of these States. The findings cannot be projected
                    to other States and localities. In addition, the five components of
                    medical surge that we reviewed do not encompass all aspects of medical
                    surge preparedness. For example, other aspects of medical surge may
                    include preparedness activities designed to improve hospital
                    evacuations and fatality management.




 OEI-02-08-00210    S TAT E   AND   L O C A L PA N D E M I C I N F L U E N Z A P R E PA R E D N E S S : M E D I C A L S U R G E   10
I N T R O D        U C T            I O N


                    Standards
                    This study was conducted in accordance with the “Quality Standards for
                    Inspections” approved by the Council of the Inspectors General on
                    Integrity and Efficiency.




 OEI-02-08-00210    S TAT E   AND   L O C A L PA N D E M I C I N F L U E N Z A P R E PA R E D N E S S : M E D I C A L S U R G E   11
Δ   F I N D I N G S



    All of the selected localities had established         HPP and PHEP guidance
    partnerships to prepare for a medical surge;           emphasize that medical surge
     however, the degree to which coordination             preparedness necessitates
                                   occurred varied         coordination among a variety of
                                                           public and private stakeholders.
                  These documents also encourage States and localities to establish
                  pandemic influenza coordinating committees and health care coalitions
                  to help plan for a pandemic. Additionally, the documents encourage
                  localities to integrate the efforts of health care facilities with the efforts
                  of agencies for public safety, emergency management, and public health.
                  All 10 localities had developed committees to help plan for a pandemic
                  As of late summer 2008, all 10 localities we reviewed had established
                  committees to help plan for an influenza pandemic. These committees
                  generally included representation from health care, public health,
                  emergency management, public safety, local schools, and private
                  industry. These committees typically were responsible for developing
                  the localities’ pandemic influenza response plans. They also commonly
                  discussed issues important to pandemic planning, such as the use of
                  volunteer health care personnel and alternate care sites, as well as how
                  best to use funds from State and Federal agencies to prepare for a
                  pandemic.

                  Although all 10 localities had established such committees, the degree to
                  which coordination occurred varied among the localities. In some
                  localities, the committees were actively engaged and met monthly, whereas
                  in other localities they met less frequently. In addition, the degree to
                  which the local health departments participated in these preparedness
                  committees also varied among localities. Many localities reported
                  challenges with keeping necessary partners engaged in pandemic
                  planning. As a few noted, planning was often fragmented because there
                  were multiple agencies and different funding streams involved.
                  All 10 localities had developed health care coalitions to coordinate the
                  efforts of health care facilities
                  All 10 localities had developed health care coalitions to coordinate the
                  preparedness efforts of health care facilities and providers and to
                  develop plans for medical emergencies, such as a pandemic.
                  Localities most commonly reported that the most active participants
                  in their coalitions were local and regional hospitals. However, some
                  localities reported that keeping hospitals engaged in the coalitions’

OEI-02-08-00210   S TAT E   AND   L O C A L PA N D E M I C I N F L U E N Z A P R E PA R E D N E S S : M E D I C A L S U R G E   12
F   I N D I N G        S


                      activities was difficult, as hospitals were often strained by increasing
                      preparedness requirements, decreasing funding, and the everyday
                      pressures to stay in business.

                      The extent to which localities had started to include other types of health
                      care providers in their coalitions differed. Many localities were in the
                      early stages or had not attempted to include nonhospital providers at all.
                      For example, only 3 of the 10 localities had coalitions that involved home
                      health care agencies, 5 localities had coalitions that involved nursing
                      homes, and 5 localities had coalitions that involved local heath care clinics.
                      In addition, several localities emphasized that their goal in working with
                      these other health care providers was mainly educational.
                      All 10 localities had started to include hospitals in their emergency
                      response planning
                      All 10 localities had started to include hospitals in their emergency
                      response planning. Until recently, hospitals were not typically part of
                      localities’ emergency response planning. However, several localities noted
                      that the relationships between hospitals and emergency management,
                      public safety, and public health officials—although relatively new—were
                      critically important to the localities’ pandemic planning response. As one
                      hospital official stated, “we need to play a bigger role in emergency
                      planning, especially if we are facing something like a pandemic.”

                      At the same time, the degree to which hospitals were included in
                      emergency response planning varied. A few localities had well-established
                      systems for sharing information between emergency management agencies
                      and hospitals. Other localities were just beginning to develop these
                      relationships, and several hospitals reported that they had not been fully
                      integrated into their localities’ emergency response planning.



        Fewer than half of the selected localities had           Medical staff will likely be scarce
                                                                 during a severe pandemic, and
      started to recruit medical volunteers, and none
                                                                 localities may need to rely on
                of the five States had implemented an
                                                                 medical volunteers to help respond
                    electronic system to manage them             to the increased demands upon the
                      medical infrastructure. To prepare for this, HPP guidance encourages
                      States and localities to recruit, register, and train medical volunteers as
                      part of the ESAR-VHP program. HPP guidance also required States to
                      develop electronic systems to register medical volunteers and verify
                      credentials by August 2009.


    OEI-02-08-00210   S TAT E   AND   L O C A L PA N D E M I C I N F L U E N Z A P R E PA R E D N E S S : M E D I C A L S U R G E   13
F   I N D I N G        S


                      Four localities had started to recruit, register, and train medical volunteers
                      As of late summer 2008, 4 of the 10 localities had started to recruit,
                      register, and train medical volunteers to be used in a pandemic. These
                      localities planned to use their volunteers primarily in alternate care
                      sites and, to a lesser degree, in hospitals. Two of the remaining
                      localities were in the early stages of developing policies and procedures
                      to recruit volunteers, whereas four others had no plans to recruit or
                      train volunteers, as they intended to use volunteers from other
                      organizations, such as the Red Cross, or rely on spontaneous volunteers.

                      The four localities that had started to recruit volunteers reported
                      registering between 38 and 200 volunteers each. To recruit volunteers,
                      they typically used media advertisements and in-person presentations
                      at health fairs and medical association meetings. They often targeted
                      specific groups, such as retired medical professionals; school nurses;
                      medical and nursing school students; and medical societies. To register
                      their volunteers, all four localities had some type of background check
                      that typically involved interviews, fingerprinting, and the verification of
                      medical licenses. All four localities also offered training to volunteers in
                      areas such as first aid techniques. In addition, two of these localities
                      used their volunteers on a routine basis, such as helping to staff
                      seasonal influenza clinics.

                      The four localities had several factors in common that may have helped
                      them develop their volunteer programs. These factors included having
                      a paid volunteer coordinator, using an existing Federal volunteer
                      program called the Medical Reserve Corps, 33 and having multiple
                      sources of funding to help support their volunteer programs.

                      At the same time, these four localities expressed a number of concerns
                      about using volunteers. They were concerned primarily that their
                      volunteers would not show up during a pandemic because of competing
                      work or other volunteer commitments or because of fears that the
                      volunteers would not be legally protected during a pandemic. They also
                      noted that volunteers may not have worked in a clinical setting
                      recently, may not have current medical licenses, or may have physical
                      limitations, thereby limiting the role that the volunteers could play


                         33 The Medical Reserve Corps in the Office of the Surgeon General is a nationwide
                      program that uses medical and public health professionals in a volunteer capacity to
                      improve the health and safety of communities. Medical Reserve Corps are local units that
                      strengthen the public health infrastructure of their communities.



    OEI-02-08-00210   S TAT E   AND   L O C A L PA N D E M I C I N F L U E N Z A P R E PA R E D N E S S : M E D I C A L S U R G E   14
F   I N D I N G        S


                      during a pandemic. Other concerns focused on the amount of resources
                      needed to maintain a successful volunteer program.
                      None of the five States had fully implemented an electronic system for
                      managing medical volunteers
                      As of late summer 2008, none of the five States had fully implemented
                      an electronic system to manage volunteers. As noted earlier, HPP
                      required States to have electronic systems for managing medical
                      volunteers by August 2009. Four of the five States reported that they
                      were in the process of selecting system software, developing their
                      systems, or writing policies for using their systems. The remaining
                      State reported that its system was not fully operational in that it was
                      still developing the ability to verify the credentials of volunteers.

                      Even though these systems were not fully operational, a number of the
                      localities expressed concerns about using their States’ systems. Two
                      localities that had their own systems for registering and credentialing
                      volunteers were reluctant to transition to the new State system. In
                      addition, three localities expressed concerns that their States may use
                      the system to deploy local volunteers without alerting the localities.



                                                                     During a severe pandemic,
      All of the selected localities had acquired limited
                                                                     the availability of medical
           medical equipment for a pandemic, but only                equipment may be
        three of the five States had electronic systems              insufficient. To address
                            to track beds and equipment              this, both PHEP and HPP
                                                                     provide States with
                      funding that can be used to purchase medical equipment at the State
                      and local levels. Localities are generally responsible for storing,
                      maintaining, and transporting this medical equipment. In addition,
                      HPP requires States to maintain systems that enable them to report to
                      HHS the number of available hospital beds and encourages States to
                      make these systems electronic. States are also encouraged to establish
                      inventory systems to track medical equipment during an emergency.
                      All 10 localities had acquired limited caches of medical equipment; however,
                      many experienced difficulties with managing this equipment
                      As of late summer 2008, all 10 localities had acquired limited medical
                      equipment to be used during a pandemic. These caches included a variety
                      of equipment, such as ventilators; portable beds; and personal protective
                      equipment, such as masks, respirators, and gloves.


    OEI-02-08-00210   S TAT E   AND   L O C A L PA N D E M I C I N F L U E N Z A P R E PA R E D N E S S : M E D I C A L S U R G E   15
F   I N D I N G        S


                      The localities used different approaches for storing this equipment. Two
                      localities distributed all of their equipment to local hospitals, whereas the
                      remaining eight localities retained some equipment in regional caches and
                      distributed the remainder to hospitals. The regional caches typically
                      consisted of equipment stored in trailers or public health departments.
                      The equipment stored in hospitals could be used in nonemergency
                      situations; however, hospitals were generally responsible for maintaining
                      and replacing the equipment so that it could be redistributed in an
                      emergency if needed.

                      Almost all of the localities reported having difficulties with managing
                      the equipment that they had acquired for a pandemic. Many noted that
                      local hospitals and health departments often did not have sufficient
                      storage space. Some localities also reported problems with maintaining
                      the equipment, indicating, for example, that they were sometimes
                      unsure of whether hospitals were replacing items that had expired. 34
                      Others mentioned difficulties with trying to standardize the medical
                      equipment, such as ventilators, in their caches. As one official noted,
                      this is particularly important because standardization makes it easier
                      to share equipment and it simplifies training. Finally, a few localities
                      noted that there are logistical challenges with moving equipment from
                      one location to another.

                      Many localities were also concerned that existing caches would be rapidly
                      depleted during a pandemic. They anticipated problems with obtaining
                      equipment through normal channels during a pandemic and questioned
                      whether vendors would be able to honor their contracts with an influx of
                      competing orders to fill. A few officials noted that supply chains may be
                      disrupted during a pandemic, especially if the supplies are shipped from
                      overseas or from another State.
                      Three States had implemented electronic systems to track available hospital
                      beds and medical equipment during an emergency
                      Although all five States were able to meet the requirement to report
                      available beds to HHS, only three States had implemented electronic
                      systems to track available hospital beds during an emergency. In
                      addition to electronically tracking available beds, these systems were
                      also able to track various types of medical equipment, such as


                         34 Certain medical materials (e.g., personal protective equipment) are imprinted with an

                      expiration date. Beyond this date, the manufacturer does not guarantee the sterility,
                      safety, or stability of the item.



    OEI-02-08-00210   S TAT E   AND   L O C A L PA N D E M I C I N F L U E N Z A P R E PA R E D N E S S : M E D I C A L S U R G E   16
    F   I N D I N G        S


                          respirators or masks. The States noted that these systems simplified
                          the process of collecting data from hospitals. In addition, these systems
                          enabled States to quickly disseminate information to hospitals and
                          localities. The remaining two States were in the process of developing
                          such systems and noted that their current methods for collecting data
                          were cumbersome.

                          At the same time, most of the localities in the three States that had
                          implemented electronic tracking systems reported difficulties with using
                          these systems. They noted that their State systems were not compatible
                          with other systems used during an emergency. For example, one
                          locality near a State border had to input the same data into two States’
                          systems. Others mentioned incompatibilities with the systems used by
                          local emergency management agencies. In addition, two localities were
                          concerned about the reliability of the data. As one noted, its State
                          system may not be kept up-to-date during an emergency because
                          overburdened hospital staff might not reliably enter information into
                          the system.



Most of the selected localities were in the early            Localities may need to use alternate
     stages of planning for alternate care sites             care sites to increase their medical
                                                             surge capacity in a pandemic. Before
                          being able to use alternate care sites, localities need to engage in a
                          significant amount of planning. Such planning generally consists of
                          identifying an appropriate location for the site; determining the scope of
                          care that the site will provide in an emergency; and establishing how
                          the site will be managed, staffed, and supplied.
                          Nine localities had either identified or were in the process of identifying
                          alternate care sites to be used in a pandemic; however, few had signed
                          formal agreements
                          As of late summer 2008, three localities had identified locations to be
                          used as alternate care sites. Each of the three localities had identified
                          between 3 and 11 sites that could be used as alternate care sites during
                          a pandemic. The sites typically included buildings such as schools,
                          churches, and convention centers. These localities had either signed or
                          were in the process of signing formal agreements with the facility
                          owners. In addition, one of these localities planned to use
                          preequipped, mobile trailers that had been purchased by the State to
                          supplement its alternate care sites during a pandemic.



        OEI-02-08-00210   S TAT E   AND   L O C A L PA N D E M I C I N F L U E N Z A P R E PA R E D N E S S : M E D I C A L S U R G E   17
F   I N D I N G        S


                      Six other localities were in the process of deciding which facilities to use
                      for their alternate care sites. The remaining locality reported that it did
                      not plan to use alternate care sites at all because it was concerned that
                      it would not be able to staff these sites. Instead, its plan was for the
                      hospitals in the area to take in as many patients as possible during a
                      pandemic.
                      None of the localities that were planning to use alternate care sites had
                      plans that included the scope of care and how these sites would be
                      managed, staffed, and supplied
                      Of the nine localities that intended to use alternate care sites, a few
                      addressed some of these components, but none addressed all of them.
                      Scope of care. Only one locality that intended to use alternate care sites
                      had defined the scope of care that would be provided. This locality
                      planned to provide triage and care for only “minor problems” at the
                      alternate care sites. The other eight localities were still considering
                      various alternatives. In general, they explained that they would most
                      likely provide triage, treatment, or both at their sites to help alleviate
                      overcrowding in hospitals. Possible treatments ranged from lower
                      levels of care, such as first aid, to more intensive care or palliative care.
                      Managing alternate care sites. Three of the localities that intended to
                      use alternate care sites had determined who would manage patient care
                      at their sites. These localities had arranged for the health department,
                      hospitals, regional coordinating entities, or a combination of these
                      entities to manage their sites.

                      The other six localities were less specific about who would be
                      responsible for managing patient care at the site. One official reported
                      that it is often challenging to find the appropriate people to manage an
                      alternate care site; public health officials often did not have the
                      specialized knowledge to manage and operate the sites, but private
                      health care facilities (such as hospitals) often did not have the
                      motivation. As several officials explained, hospitals often did not want
                      to participate in managing alternate care sites because of liability
                      concerns, as well as staffing and reimbursement concerns.
                      Staffing alternate care sites. Only one locality had determined who
                      would staff its alternate care sites. This locality planned to use medical
                      volunteers that it had already recruited and trained. Six other localities
                      that intended to use alternate care sites were still in the beginning
                      stages of planning and were considering recruiting volunteers from
                      groups such as the Red Cross, home health agency staff, health care

    OEI-02-08-00210   S TAT E   AND   L O C A L PA N D E M I C I N F L U E N Z A P R E PA R E D N E S S : M E D I C A L S U R G E   18
F   I N D I N G        S


                      clinic staff, and medical school students. The remaining two localities
                      said that they would primarily rely on hospital staff.
                      Supplying alternate care sites. Four of the localities that intended to
                      use alternate care sites said they had acquired some of the supplies
                      needed for the sites. These localities were planning to use the medical
                      equipment from either a regional cache or a mobile trailer stocked with
                      medical equipment. In contrast, the remaining localities had not yet
                      obtained supplies for the alternate care sites. These localities were
                      either planning to order the equipment during a pandemic or were in
                      the process of trying to acquire equipment for the sites.


                                                               During a pandemic, guidelines
Most of the selected localities had not identified
                                                               governing triage, admission, and
  guidelines for altering triage, admission, and               patient care may need to be
     patient care; many cited liability concerns               altered to save as many lives as
                                                               possible. To address this,
                      localities may identify and adopt a standard set of guidelines for
                      altering triage, admission, and patient care. Such an approach would
                      ensure that all hospitals and other health care providers in the locality
                      or region were making uniform decisions during a pandemic.
                      Nine localities had not identified guidelines for altering triage, admission,
                      and patient care during a pandemic
                      As of late summer 2008, only one locality had identified a standard set
                      of guidelines for altering triage, admission, and patient care during a
                      pandemic. This locality was in the process of encouraging hospitals to
                      adopt these guidelines to ensure that care was provided in a consistent
                      manner. The guidelines that this locality identified were developed in
                      Canada after the Severe Acute Respiratory Syndrome outbreak. These
                      guidelines provide direction for how to alter patient care during a
                      pandemic. They also assist health care providers with determining
                      whether a patient should be admitted to a hospital for treatment or
                      offered other options, such as palliative care. In particular, the
                      guidelines provide hospitals with a scoring method based on specific
                      characteristics of patients to use for triaging and for making decisions
                      about how to equitably allocate limited resources, such as ventilators.

                      Several localities highlighted the importance of coordinating the
                      approaches of all hospitals and other health care providers in the
                      region. As one hospital official noted, the lack of coordination between
                      admission protocols could be devastating for a local hospital. For

    OEI-02-08-00210   S TAT E   AND   L O C A L PA N D E M I C I N F L U E N Z A P R E PA R E D N E S S : M E D I C A L S U R G E   19
  F   I N D I N G        S


                        example, if neighboring hospitals rely on different protocols for
                        admission and patient care, one hospital could become inundated with
                        patients denied care at the neighboring hospital.
                        Localities commonly cited concerns about liability and a lack of State or
                        Federal guidance
                        The nine localities that had not identified a standard set of guidelines
                        gave several reasons for their reluctance. Seven localities noted that
                        providers in their localities were concerned that they would be legally at
                        risk if they had to alter their triage, admission, or patient care. As one
                        locality noted, “Our hospitals will functionally be practicing battlefield
                        medicine. I don’t think providers are prepared to deal with this, and we
                        haven’t even begun to deal with all the legal questions that will arise
                        from practicing this type of medicine.” A few localities noted that
                        instituting a uniform set of guidelines would minimize the legal risk to
                        providers.

                        The nine localities also reported that they wanted additional State or
                        Federal guidance before attempting to institute uniform guidelines in
                        their localities. Localities were concerned that it may not be
                        appropriate to institute guidelines in the absence of State or Federal
                        guidance. Several localities mentioned that it would be extremely
                        valuable to have a single set of nationwide or statewide guidelines. As
                        one official noted, “when you start to alter your protocols for patient
                        care without the backing of statewide guidelines, you open yourself up
                        to potential litigation.”



All of the selected localities conducted medical             Localities conduct exercises to test
                                                             and improve their preparedness
   surge exercises; however, none consistently
                                                             efforts. HPP and PHEP guidance
                documented the lessons learned
                                                             require States to conduct exercises
                        and encourage States to conduct these exercises pursuant to HSEEP
                        requirements. 35 Among other things, HSEEP requires participants to
                        create an after-action report that documents the preparedness issues
                        that arose during the exercise and an improvement plan that shows how
                        participants will follow up on the lessons learned.



                           35 Beginning in August 2008, all exercises associated with HPP and PHEP funding were

                        required to meet HSEEP requirements for after-action reports and improvement plans.
                        Note that this was not a requirement for any of the exercises reviewed for this study.



      OEI-02-08-00210   S TAT E   AND   L O C A L PA N D E M I C I N F L U E N Z A P R E PA R E D N E S S : M E D I C A L S U R G E   20
F   I N D I N G        S


                      Localities conducted between one and seven medical surge exercises over
                      a 2-year period
                      Between mid-2006 and mid-2008, the 10 selected localities conducted a
                      total of 41 exercises that focused on medical surge. Over half of these
                      exercises were specific to a pandemic, whereas the remainder focused on
                      other types of emergencies. As shown in Figure 1, the exercises most
                      commonly focused on coordination among hospitals and other
                      responders, followed by the management of medical equipment. Fewer
                      exercises tested the use of alternate care sites; guidelines for altering
                      triage, admission, and patient care; and volunteers. Most exercises
                      focused on more than one medical surge component.

          Figure 1:                                                     39
                                                        40
        Number of                                                                              37
     Exercises by
    Medical Surge
                                 Number of Exercises




       Component                                        30


                                                                                                                     21                     20
                                                        20                                                                                               17



                                                        10



                                                          0
                                                                Coordination             Medical               Alternate              Triage,        Volunteers
                                                                                        Equipment              Care Sites            Admission,
                                                                                                                                    Patient Care

                      Source: OIG analysis of documentation from selected States and localities, 2009.
                      Note: Most exercises focused on more than one medical surge component.


                      Most of the medical surge exercises were discussion based, rather than
                      operations based
                      Discussion-based exercises can be used to identify and address gaps
                      in preparedness plans before more resource-intensive operations-
                      based exercises are conducted. As shown in Table 1, over half of the
                      41 medical surge exercises conducted by the 10 selected localities
                      were discussion based and over a third were operations based. The
                      remaining exercises were actual emergencies that localities evaluated
                      for lessons learned. In total, 7 of the 10 localities conducted at least
                      one discussion-based exercise and one operations-based exercise.




    OEI-02-08-00210   S TAT E   AND                    L O C A L PA N D E M I C I N F L U E N Z A P R E PA R E D N E S S : M E D I C A L S U R G E                21
F   I N D I N G        S



                            Table 1: Number of Exercises, by Type of Exercise
                                                                                                                 Number of           Percentage
                           Type of Exercise                                                                                         of Exercises
                                                                                                                 Exercises

                           Discussion-based                                                                                   23           56%

                           Operations-based                                                                                   15           37%

                           Based on Actual Emergencies                                                                          3           7%

                                Total                                                                                         41          100%

                           Source: OIG analysis of documentation from selected States and localities, 2009.


                      Localities’ discussion-based exercises typically involved discussions by
                      participants regarding potential responses to simulated scenarios in an
                      informal setting. These types of exercises most commonly involved a
                      facilitator who described a mock emergency to the participants. During
                      each phase of the mock emergency—hour-by-hour or week-by-week—the
                      participants discussed how they would respond. Typically, the
                      facilitator prompted the participants with predetermined questions.
                      For example, as part of one locality’s exercise, the facilitator described a
                      scenario, stating that “It is now three hours into the incident. You are
                      at capacity for beds. Your staffing is at 83 percent of your
                      requirements . . . .” The facilitator then posed a variety of questions to
                      participants, such as: “What are your top five priorities now?”; “What
                      are your alternate care site plans?”; and “What do you need to do with
                      regard to medical supplies?”

                      In contrast, localities’ operations-based exercises typically occurred in
                      participants’ actual work environments and participants physically
                      responded to a mock emergency. For example, in one exercise, the
                      following events were communicated to participants in hospitals via
                      radio: “Local Emergency Operations Centers requesting update on
                      hospital status by 9 a.m.” and “Some hospitals are reporting influx of
                      people . . . .” Participants then had to respond and provide their status.
                      Some of the operations-based exercises also involved the actual delivery
                      of equipment and supplies or an influx of mock patients to hospitals.

                      In addition, three localities experienced actual emergencies that they
                      evaluated for lessons learned. For example, one locality evaluated its
                      medical surge response to an ice storm in which staff at local hospitals,
                      the public health department, the Red Cross, and emergency
                      management coordinated to establish and run shelters for 400 residents



    OEI-02-08-00210   S TAT E   AND   L O C A L PA N D E M I C I N F L U E N Z A P R E PA R E D N E S S : M E D I C A L S U R G E                  22
 F   I N D I N G        S


                       over 10 days. Another locality evaluated how it responded to a local
                       shooting in which numerous people were admitted to the hospital.
                       Localities did not consistently document the lessons learned from
                       exercises
                       As noted earlier, localities are encouraged to document lessons learned
                       during exercises through the creation of after-action reports and
                       improvement plans. None of the 10 localities had completed an
                       after-action report and an improvement plan for all of their exercises.
                       However, all of the localities had completed either an after-action report
                       or an improvement plan for at least one of their exercises.
                       For 9 of the 41 exercises, localities completed neither after-action
                       reports nor improvement plans. For another 20 exercises, localities
                       completed only after-action reports. For the remaining 12 exercises,
                       they completed both after-action reports and improvement plans. See
                       Figure 2.



           Figure 2:         After-Action Report and                                                           No After-Action Report and
                                Improvement Plan                                                                 No Improvement Plan
         Number of
                              (12 Exercises; 29%)                                                                 (9 Exercises; 22%)
     Exercises With
       After-Action
       Reports and
Improvement Plans




                                                                            After-Action Report Only
                                                                              (20 Exercises; 49%)




                       Source: OIG analysis of documentation from selected States and localities, 2009.


                       Localities reported several problems with preparing after-action reports
                       and improvement plans. Specifically, they mentioned difficulties with
                       conforming to HSEEP requirements that specify the format of and type
                       of information that needs to be included in after-action reports and
                       improvement plans. One locality reported that these requirements were
                       not “hospital-friendly,” while another locality reported needing a
                       full-time person to complete all of the required documents.



     OEI-02-08-00210   S TAT E   AND   L O C A L PA N D E M I C I N F L U E N Z A P R E PA R E D N E S S : M E D I C A L S U R G E          23
F   I N D I N G        S


                      Exercises showed that localities needed to make improvements within the
                      five medical surge components
                      The after-action reports from the exercises we reviewed showed that
                      localities needed to make improvements within the five medical surge
                      components. In particular, several reports highlighted the need for
                      better coordination among stakeholders as well as the need for a better
                      understanding of their roles and responsibilities during an emergency.
                      Other reports focused on the need to improve coordination with
                      emergency management agencies as well as enhance coordination with
                      health care entities, such as long term care facilities and clinics.

                      After-action reports also highlighted difficulties with medical
                      equipment. Several reports indicated that localities had not assessed
                      their equipment needs or could not deploy existing equipment. These
                      reports also indicated that hospitals did not have plans for dealing with
                      equipment shortages. One report pointed out that the locality had not
                      established agreements among its hospitals to help facilitate the
                      sharing of equipment.

                      A few after-action reports also showed a need for localities to make
                      improvements within the other medical surge components. These
                      reports cited a need for localities to start or continue to plan for
                      alternate care sites, specifically in terms of establishing who would
                      manage and staff the sites. For example, one report noted that local
                      hospitals and the public health department disagreed over who would
                      open alternate care sites. Several reports also showed the need for
                      localities to recruit additional medical volunteers, such as medical and
                      nursing students. Another report noted that the locality should
                      consider developing guidelines for altering patient care and determine
                      the legality of adopting these guidelines.




    OEI-02-08-00210   S TAT E   AND   L O C A L PA N D E M I C I N F L U E N Z A P R E PA R E D N E S S : M E D I C A L S U R G E   24
Δ   R E C O M M E N D A T I O N S


                  The recent public health emergency caused by an outbreak of human
                  cases of H1N1 influenza has highlighted the need for States and
                  localities to be prepared for a medical surge. Our review found that
                  although the selected States and localities are making progress within
                  the five components of medical surge that we reviewed, more needs to
                  be done to improve States’ and localities’ ability to respond to a
                  pandemic.

                  Specifically, we found that in preparation for a pandemic, all of the
                  10 selected localities had established partnerships to prepare for a
                  medical surge; however, the degree to which this coordination occurred
                  varied. We also found that fewer than half of the selected localities had
                  started to recruit medical volunteers, and none of the five States had
                  implemented an electronic system to manage these volunteers.
                  Similarly, all selected localities had acquired limited medical equipment
                  for a pandemic, but only three of the five States had electronic systems
                  to track available beds and equipment. In addition, most of the selected
                  localities were in the early stages of planning for alternate care sites,
                  and most localities had not identified guidelines for altering triage,
                  admission, and patient care during a pandemic. Finally, although all of
                  the selected localities conducted medical surge exercises, none
                  consistently documented the lessons learned.

                  Based on these findings, we recommend that ASPR, in collaboration
                  with CDC:
                  Work with States and localities to improve their efforts within each
                  of the five components of medical surge that we reviewed
                   •    ASPR should continue to emphasize the importance of coordination and
                        involving a wide array of stakeholders in medical surge and pandemic
                        planning. Specifically, additional guidance should focus on integrating
                        local hospitals into emergency response planning as well as
                        emphasizing the importance of including other health care providers—
                        such as nursing homes, home health agencies, clinics, and physicians—
                        in pandemic planning efforts. In addition, ASPR should collaborate
                        with CDC to ensure that public health officials are actively involved in
                        medical surge preparedness activities.
                   •    ASPR should continue to emphasize the importance of recruiting,
                        registering, and training medical volunteers for use in a pandemic. In
                        addition, ASPR should continue to monitor States’ progress in
                        developing electronic systems (pursuant to the guidelines established

OEI-02-08-00210   S TAT E   AND   L O C A L PA N D E M I C I N F L U E N Z A P R E PA R E D N E S S : M E D I C A L S U R G E   25
R   E C O        M M E N D A T                         I O N               S


                            for ESAR-VHP) to register volunteers and verify credentials. ASPR
                            should also encourage States and localities to make use of existing
                            Federal volunteer programs, such as the Medical Reserve Corps.
                       •    ASPR should continue to emphasize the importance of managing
                            medical equipment currently being stockpiled for a public health
                            emergency, such as a pandemic. Specifically, ASPR should consider
                            providing guidance on how best to store, maintain, and transport
                            medical equipment. In addition, ASPR should consider providing
                            guidance on the tracking of medical equipment in addition to the
                            tracking of available hospital beds.
                       •    ASPR should continue to emphasize the importance of planning for
                            alternate care sites for use during a pandemic. ASPR should include
                            specific guidance about determining the scope of care to be provided at
                            alternate care sites and how the sites can be managed, staffed, and
                            supplied.
                       •    ASPR should emphasize the importance of identifying and adopting
                            guidelines for altering triage, admission, and patient care during a
                            pandemic. ASPR should consider developing guidelines for altering
                            standards of care during a pandemic. These guidelines could serve as
                            a model for States. In addition, ASPR should strengthen current
                            guidance to encourage hospitals and other health care providers to
                            make uniform decisions during a pandemic.
                      Ensure that States and localities consistently document the lessons
                      learned from preparedness exercises that address medical surge
                      Given the importance of exercises in strengthening preparedness,
                      ASPR, in collaboration with CDC, should ensure that States and
                      localities consistently document the lessons learned from all medical
                      surge exercises that require HSEEP compliance. ASPR and CDC
                      should conduct additional reviews to ensure that such exercises are
                      meeting HSEEP requirements.
                      Address the issue of legal protections for medical professionals and
                      volunteers who respond to public health emergencies, such as an
                      influenza pandemic
                      ASPR should consider working with States to develop appropriate legal
                      protections for medical professionals and volunteers who respond to public
                      health emergencies, such as an influenza pandemic, and who may need to
                      alter standards of care. ASPR should also consider the feasibility of
                      Federal legislation in this area. Additionally, ASPR should encourage
                      States and localities to inform health care providers about liability issues

    OEI-02-08-00210   S TAT E   AND   L O C A L PA N D E M I C I N F L U E N Z A P R E PA R E D N E S S : M E D I C A L S U R G E   26
R   E C O        M M E N D A T                         I O N               S


                      using documents such as AHLA’s “Community Pan-Flu Preparedness: A
                      Checklist of Key Legal Issues for Healthcare Providers.”

                      Facilitate the sharing of information and emerging practices
                      among States and localities
                      ASPR, in collaboration with CDC, should collect information on
                      emerging practices from States and localities, as well as experts in the
                      field, to further improve medical surge preparedness. These efforts
                      should focus particularly on planning for alternate care sites and
                      identifying and adopting guidelines for altered standards of care. ASPR
                      should employ a variety of strategies to facilitate the sharing of
                      information and emerging practices among States and localities. For
                      example, ASPR could develop a secure Web site or listserv where States
                      and localities could compare themselves to other States and localities
                      with similar characteristics and share information. ASPR could also
                      provide a mentoring program for State officials responsible for
                      preparedness as well as develop additional opportunities for in-person
                      meetings.
                      Provide training and technical assistance to States and localities on
                      key issues
                      ASPR, in collaboration with CDC, should provide training and technical
                      assistance to States and localities to bolster their medical surge
                      preparedness efforts. ASPR should address specific State and local
                      challenges, such as identifying alternate care sites, managing medical
                      equipment, and identifying guidelines for alternate standards of care.
                      ASPR should use its partnerships with existing groups, such as the
                      National Association of County and City Health Officials, the
                      Association of State and Territorial Health Officials, and the American
                      Hospital Association, to help facilitate these activities.


                      AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
                      RESPONSE
                      ASPR concurred with all five of our recommendations. The full text of
                      ASPR’s comments is provided in Appendix B. CDC did not formally
                      comment, but did provide technical comments. We made changes to the
                      final report based on CDC’s technical comments, as appropriate.




    OEI-02-08-00210   S TAT E   AND   L O C A L PA N D E M I C I N F L U E N Z A P R E PA R E D N E S S : M E D I C A L S U R G E   27
Δ      A P P E N D I X ~ A



                  Selected States and Localities


                                                  State                                                         Locality

                     Maine                                                           Portland

                                                                                     Lewiston

                     Missouri                                                        Saint Louis

                                                                                     Rolla

                     South Dakota                                                    Sioux Falls

                                                                                     Mitchell

                     Virginia                                                        Virginia Beach

                                                                                     Blacksburg

                     Washington                                                      Seattle

                                                                                     Longview




OEI-02-08-00210   S TAT E   AND   L O C A L PA N D E M I C I N F L U E N Z A P R E PA R E D N E S S : M E D I C A L S U R G E   28
..      A P PEN D                                       x          B



      Agency Comments



       (~
          ¡l'if,IIVIc,

                                  DEPARTMNT OF HEALTH & HUAN SERVICES                                                   Offce of the Seretary

        ~.,'~~                                                                                                          Assistant Secretary for
                                                                                                                        Prepa'ØIness & Response
                                                                                                                        Washlnglon. 0.0.20201




                         DA'ff: September 1, 2009

                         TO: Stuar Wright
                                            Deputy Inpector General for Evaluation           and Inspections


                         FROM: Gerald W. Parker, DVM, PhD, MS /S/
                                            Principal Deputy Assistat Secreta for Preparedness              and   Response

                         SUBJECT: OIG Draft Report: "State and LocalPandemic InfuenZ Preparedness: Medícal
                                            Surge," OEI-02-08-0021 0


                         The Offce of      the Assistat Secreta for Preparedness and              Response (ASPR) apprecíates the
                         opportty to review and respond to the Offce ofInspector Geneta's (OIG) dr report
                         entitled, "State and Local Pandemic Infuenza Praredness: Medical Surge," OEI-02-08-00210.


                         om Recomiuendations
                         . Work with States and localiies to improve tbeir efforts within each oftbe five
                               components of medical surge tbat we reviewed.
                               o ASPR should continue to emphasize the importance of coordination and involving a wide
                                    aray of steholders in medical surge and pandemic plan.
                               o ASPR should continue to emphasize the importce of                   recruiting, registering, and
                                    traing medical volunteers for use in a pandemic.
                               o A8PR should contiue to emphaize the importce                 of manging medical equipment
                                    curently being stockpiled for a public       health emergency such as a pandemic.
                               o ASPR should continue         to emphaize       the importce of      planng for alternate care sites
                                    for use durg a pandemic.
                               o ASPR should emphasize the importce of identifYing and          adopting gudelines for
                                    alterig triage, admission, and patient care during  a pandemc.
                         .   Ensure that states and localitiescbnsistentlydocuiuent the        lessons learned from
                               preparedness exercises that address médicalsurge.
                         . Address the issue onegal protections foriuedical profllsionals andVblunteers wbo
                            respond to public health eiuergencies, such as an influenza pandemic.
                         . ASPR sbould consider working witbStates to faciltate the sharing of information and
                               emerging    practices among States and localities.
                         . Provide training and technical assistance to States and localities on key issués.

                         ASPR Resllonse

                         We concur with       these recomiendationsand look forward to working with                the OIG on this issue.




 OEI.02.08.00210                     STATE AND LOCAL PANDEMIC INFLUENZA PREPAREDNESS: MEDICAL SURGE                                               29
Δ      A C K N O W L E D G M E N T S

                      This report was prepared under the direction of Jodi Nudelman,
                      Regional Inspector General for Evaluation and Inspections in the
                      New York regional office, and Meridith Seife, Deputy Regional Inspector
                      General.

                      Judy Kellis served as the team leader for this study. Other principal
                      Office of Evaluation and Inspections staff from the New York regional
                      office who contributed to the report include Judy Bartlett and
                      Christine Moundas; central office staff who contributed include
                      Talisha Searcy and Robert Gibbons.




    OEI-02-08-00210   S TAT E   AND   L O C A L PA N D E M I C I N F L U E N Z A P R E PA R E D N E S S : M E D I C A L S U R G E   30
